HHS/OIG-Audit--"Report on Selected Community Health Center Grantee Audit Findings, (A-07-92-00518)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Report on Selected Community Health Center Grantee Audit Findings," (A-07-92-00518)
November 5, 1992
Complete
Text of Report is available in PDF format (1.73 MB). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report summarizes the results of our review of 212 nonfederal audit
reports pertaining to 171 or 33 percent of the 520 community health center (CHC)
grantees. The review disclosed that about 46 percent of the CHCs have inadequate
internal controls to prevent fraud, waste and abuse; about 50 percent have inadequate
accounting records and procedures; about 36 percent have inadequate patient billing
and collection procedures; about 20 percent have poor cash management practices;
about 6 percent were delinquent in payroll tax payments; about 27 percent prepared
inaccurate financial statements and reports; and about 6 percent of the CHCs were
in noncompliance with statutory requirements. The Public Health Service concurred
with our recommendations calling for the Health Resources and Services Administration
to strengthen its monitoring of the CHC program.